                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Alleged Misuse of Tribal
                        Clean Water Act Section 106
                        Funds in EPA Region 8
                        Report No. 12-P-0453                May 4, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                         Patrick Gilbride
                                             Erin Barnes-Weaver
                                             Todd Goldman




Abbreviations

CWA           Clean Water Act
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
OIG           Office of Inspector General
ROC           Regional Operations Committee
STAG          State and Tribal Assistance Grants
TAP           Tribal Assistance Program
USGS          U.S. Geological Survey
WQX           Water Quality Exchange




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mail code 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            12-P-0453
                                                                                                         May 4, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Alleged Misuse of Tribal Clean Water Act
This review responds to a
                                    Section 106 Funds in EPA Region 8
hotline complaint on alleged
misuse of Clean Water Act            What We Found
(CWA) Section 106 funds in
U.S. Environmental Protection       On the first allegation, we found that Region 8 funded tribal Section 106
Agency (EPA) Region 8. The          programs based on the region’s review of tribal work plans and did not
complaint alleged that Region 8:    inappropriately withhold funds. Region 8 frequently determined that tribal work
(1) withheld funds meant for        plans did not warrant the level of funds requested and, therefore, did not award
tribal programs; (2) provided       all program funds to the tribes.
funds to the U.S. Geological
Survey and used funds for a         On the second allegation, Region 8 provided evidence that both the interagency
water quality database that         agreement and water quality database benefit the tribes. However, Region 8
neither benefitted tribes nor had   does not have an effective method for gaining tribal approval to use Section 106
their approval; and (3) provided    funds for special projects/associated program support costs.
ineffective tribal support by
separating decision making          On the third allegation, we found that Region 8 properly followed Agency
between two offices.                guidance by housing regional program managers separately from the regional
                                    grants management office, but there were opportunities for improvement. The
Background                          region had taken steps to improve cross-office coordination and communication
                                    before we started our review.
CWA Section 106 authorizes
EPA to provide federal               What We Recommend
assistance (in the form of water
pollution control program           We recommend that the Office of Water develop guidance on the use of
grants) to Indian tribes to         Section 106 tribal grants funds for associated program support costs, similar to
establish and implement             that developed by EPA’s Office of Air and Radiation for Clean Air Act Section
ongoing water pollution control     105. We also recommend that Region 8 develop guidance to formalize the
programs. There are 23 tribal       process by which the region gains approval from tribes for associated program
governments in Region 8             support costs funded with Section 106 program funds. Further, we recommend
eligible to receive CWA Section     that Region 8 evaluate the effectiveness of the region's team approach to tribal
106 water pollution control         technical assistance—as part of regional guidance—by querying tribal Regional
program grants.                     Operations Committee members and making adjustments as needed based on
                                    tribal feedback.

For further information, contact     Planned Agency Corrective Actions
our Office of Congressional and
Public Affairs at (202) 566-2391.   The Office of Water and Region 8 concurred with our recommendations and
                                    described planned actions to address our recommendations. Our
The full report is at:
www.epa.gov/oig/reports/2012/
                                    recommendations remain unresolved pending planned completion dates on
20120504-12-P-0453.pdf              actions to address our recommendations.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL



                                           May 4, 2012

MEMORANDUM

SUBJECT:	 Alleged Misuse of Tribal Clean Water Act Section 106 Funds in EPA Region 8
          Report No. 12-P-0453


FROM:          Arthur A. Elkins, Jr.

TO:	           Nancy K. Stoner
               Acting Assistant Administrator for Water

               James B. Martin

               Regional Administrator, Region 8           



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We will post your response on the OIG’s public website,
along with our memorandum commenting on your response. Please provide your response as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want released to the public; if your response contains such data, you should identify the data
for redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or heist.melissa@epa.gov, or Patrick Gilbride at (303) 312-6969 or
gilbride.patrick@epa.gov.
Alleged Misuse of Tribal Clean Water Act                                                                                      12-P-0453
Section 106 Funds in EPA Region 8



                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


              Clean Water Act Section 106 ............................................................................                1

              EPA Region 8 Organization ..............................................................................                2

              Tribal and Regional Operations Committees ....................................................                          2

              Associated Program Support Costs ..................................................................                     3


   Scope and Methodology.............................................................................................                 3


   Results of Review .......................................................................................................          4


              Allegation #1: Region 8 Withheld Funds Intended for Tribal Programs ............                                        4

              Allegation #2: Region 8 Used Funds for Projects That Neither Benefitted 

                  Tribes nor Had Their Approval .....................................................................                 5

              Allegation #3: Region 8 Separated Decision Making Between Two Offices .....                                             8


   Recommendations ......................................................................................................             9


   Agency Comments and OIG Evaluation ...................................................................                            10 


   Status of Recommendations and Potential Monetary Benefits..............................                                           11 




Appendices
   A       Agency’s Response to Draft Report.................................................................                        12


   B       Distribution .........................................................................................................    16

Purpose
                 On June 6, 2011, the U.S. Environmental Protection Agency (EPA) Office of
                 Inspector General (OIG) received a hotline complaint alleging misuse of tribal
                 Clean Water Act (CWA) Section 106 funds in Region 8. The complaint alleged that:

                      1.	 Region 8 inappropriately withheld tribal grant funds.
                      2.	 Region 8 used funds for activities that neither benefitted tribes nor had
                          their approval; these activities involved an interagency agreement with the
                          U.S. Geological Survey (USGS) and a contract with a service provider to
                          support the Water Quality Exchange (WQX) database.
                      3.	 Region 8 separated tribal decision making between two different offices.

                 Our review addressed the three allegations by determining whether Region 8
                 followed appropriate guidance for funding activities other than tribal grants with
                 Section 106 tribal funds.

Background

                 Clean Water Act Section 106

                 Congress passed the CWA of 1972 to address growing environmental and public
                 health concerns related to water pollution. The Act created mechanisms to
                 regulate the discharge of pollutants and to ensure continuing water quality. CWA
                 Section 106 authorizes EPA to provide federal assistance (in the form of water
                 pollution control program grants) to states and Indian tribes to establish and
                 implement ongoing water pollution control programs.

                 On October 20, 2006, EPA published Final Guidance on Awards of Grants to Indian
                 Tribes under Section 106 of the Clean Water Act: For Fiscal Year 2007 and Future
                 Years. The goal of the guidance is to help tribal water quality program managers,
                 staff, and others design and implement effective and successful water quality
                 programs. The guidance also provides EPA regions procedures and guidelines for
                 awarding and administering grants to federally recognized tribes. Reporting
                 requirements and data management expectations for all tribal programs are a key
                 component of the guidance. As a grant requirement, tribes must submit annual Tribal
                 Assessment Reports that contain information about water quality on tribal land,
                 which is compiled by EPA to demonstrate national results for the Section 106 tribal
                 program. A Tribal Assessment Report must have (1) a description of the monitoring
                 strategy, (2) a water quality assessment, and (3) electronic copies of water quality
                 data. EPA’s WQX database houses water quality monitoring data collected by water
                 resource management groups across the country.1

1
 The guidance initially required that water quality monitoring data be submitted in an electronic format compatible
with the Agency’s STORET system. WQX replaced STORET in 2009 as EPA’s repository of water quality
monitoring data.


12-P-0453                                                                                                             1
            EPA Region 8 Organization

            EPA Region 8 serves the states of Colorado, Montana, North Dakota,
            South Dakota, Utah, and Wyoming, as well as 27 federally recognized tribal
            governments on 26 Indian reservations. There are 23 tribal governments in
            Region 8 eligible to receive CWA Section 106 grants. Region 8’s organization
            includes four offices relevant to the hotline complaint (table 1).

            Table 1: Relevant offices in Region 8
              Office of Partnerships     Office of Ecosystems     Office of Technical
                  and Regulatory             Protection and        and Management          Montana
                    Assistance                Remediation              Services         Operations Office
             This office’s Tribal        This office houses the   This office houses    Some of
             Assistance Program          Wetlands and Tribal      the Grants, Audits,   Region 8’s
             (TAP) acts as a liaison     Unit and provides        Procurement           federally
             for EPA offices, the 27     support functions for    Program and the       recognized tribes
             tribes within the region,   tribal grants.           Fiscal Management     are in Montana,
             and other federal                                    and Planning          and some Montana
             agencies.                                            Program.              staff help review
                                                                                        tribal grant work
                                                                                        plans.
            Source: OIG summary of relevant Region 8 offices based on Region 8 organizational charts and
            interviews with Region 8 staff.

            While the Office of Ecosystems Protection and Remediation, TAP, and the
            Montana Operations Office provide support functions for tribal grants, TAP
            manages the General Assistance Program and air, waste, and water grants
            (including CWA Section 106). TAP also serves as the main point of contact on
            tribal issues, including acting as a liaison to the tribal Regional Operations
            Committee (ROC).

            Tribal and Regional Operations Committees

            On February 17, 1994, then EPA Administrator Carol M. Browner created the
            Tribal Operations Committee to help EPA establish a national co-regulatory
            partnership by providing a forum for enhancing tribal environmental protection.
            Region 8 then formed a ROC to help maintain a government-to-government
            relationship between the region and tribes. The ROC issued a charter in March
            2011 that describes the ROC as a liaison between the national Tribal Operations
            Committee, tribes, and Region 8 on national policy issues. The ROC includes one
            representative from each tribe in Region 8, each of which has one vote. The
            charter provides that the ROC maintains open and consistent communications
            with the Regional Administrator and staff on matters of regional significance to
            tribal governments, and that the ROC is to enhance and improve EPA tribal
            operations. The ROC charter describes EPA’s role and responsibility to listen to
            ROC members and fully consider the perspectives and views of the tribes they
            represent. The ROC holds quarterly meetings. The ROC charter provides that
            voting—taken through roll call at meetings—requires a quorum consisting of nine
            members, one of which must be an officer.


12-P-0453                                                                                                  2
                   Associated Program Support Costs

                   In EPA’s FY 1999 appropriation2 and in each year thereafter, Congress added
                   authority for “associated program support costs” that permits EPA to use a portion
                   of funds available for tribes for activities that benefit all or a portion of tribal
                   grant recipients. Region 8 entered into an interagency agreement with USGS to
                   conduct tribal water quality monitoring in August 2006. Region 8 also entered
                   into a contract to facilitate tribes entering water quality data into WQX.
                   Region 8’s Office of Regional Counsel considers services provided through the
                   interagency agreement with USGS and through the WQX contract to be
                   associated program support.

                   In the absence of specific guidance from EPA’s Office of Water on using CWA
                   Section 106 funds for associated program support, Region 8’s TAP has relied on
                   guidance from the Office of Air and Radiation on funding associated program
                   support activities under Clean Air Act Section 105. EPA’s Guidance on the Office
                   of Air and Radiation (OAR) Assistance Authorities and Allowable FY 2009 State
                   and Tribal Assistance Grant [STAG] Funded Activities states that, for EPA to use
                   STAG resources as associated program support, an activity must (a) be the
                   inherent responsibility of a state, tribal, or local air pollution control agency; and
                   (b) be of primary benefit to these agencies and not EPA. The Office of Air and
                   Radiation guidance also requires that EPA must also get the prior approval of
                   these agencies before such funding can be used for associated program support
                   activities. According to the Office of Air and Radiation guidance, associated
                   program support costs should promote administrative efficiency and cost savings
                   to the recipients, and EPA can provide funding for such costs through a grant,
                   contract, or interagency agreement.

Scope and Methodology
                   We performed our field work from July 2011 to March 2012 in accordance with
                   generally accepted government auditing standards. Those standards require that
                   we plan and perform our review to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based on our
                   objectives. We believe the evidence obtained provides a reasonable basis for our
                   findings and conclusions.

                   We reviewed relevant laws, regulations, policies, procedures, and guidance
                   governing CWA Section 106. We conducted interviews with Region 8 personnel
                   responsible for administering and managing Section 106 funds, including
                   personnel from the Office of Partnerships and Regulatory Assistance/TAP, Office
                   of Ecosystems Protection and Remediation, Office of Technical and Management
                   Services, Montana Operations Office, and Office of Regional Counsel. We also
                   interviewed EPA headquarters Office of Water personnel on national
                   guidance/policies. Further, we interviewed USGS personnel and reviewed ROC
2
    Public Law 105-276 (October 21, 1998).


12-P-0453                                                                                              3
                 meeting minutes to determine if there was tribal approval of the region’s use of
                 Section 106 funds for program support activities. We also reconciled grant funds
                 used for the interagency agreement with USGS. We did not review or evaluate the
                 performance of the person conducting work under the EPA–USGS interagency
                 agreement mentioned by name in the hotline complaint. We do note in our report,
                 however, the positive observations by some tribes with regard to work performed
                 under the interagency agreement. To address the allegations raised in the
                 complaint, our review focused on the process by which Region 8 used funds to
                 put the interagency agreement in place.

Results of Review

                 Allegation #1: Region 8 Withheld Funds Intended for Tribal Programs

                 Region 8 funded Section 106 programs based on the region’s review of tribal
                 work plans and did not inappropriately withhold funds for special projects or
                 associated program support costs. Tribes submitted detailed work plans when
                 applying for grants under CWA Section 106. The Office of Water affords regions
                 flexibility on awarding the allocation. The national CWA Section 106 coordinator
                 in the Office of Water said that most regions allocate 100 percent of program
                 funds. However, the Final Guidance on Awards of Grants to Indian Tribes under
                 Section 106 of the Clean Water Act: For Fiscal Years 2007 and Beyond does not
                 require that regions allocate all funds as part of the regional process to administer
                 grants.3

                 Region 8 has a four-step process for reviewing tribal grant applications and
                 making funding decisions:

                      1.	 The project officer reviews the proposal and provides recommendations.
                      2.	 A peer reviewer reviews the proposal and provides comments.
                      3.	 Technical reviewers review the proposal and provide comments and
                          funding recommendations.
                      4.	 The management team reviews the comments generated by the above
                          steps and makes final funding decisions.

                 Region 8’s TAP awards grants to tribes based on a review of their work plans,
                 past performance, and the ability of the tribes to meet the goals specified in their
                 work plans. TAP may determine that tribal work plans do not warrant the level of
                 funds requested and, therefore, the region may not award all program funds to the
                 tribes. Table 2 lists Region 8’s annual allocations and remaining funds for
                 FYs 2008–2011.



3
 The regulations for “EPA Action of Applications” for tribal grants, 40 Code of Federal Regulations 35.516,
35.517, and 35.518, appear to contemplate that there can be circumstances when all allocated grant funds might not
be awarded to tribes.


12-P-0453                                                                                                            4
            Table 2: Annual allocations and remaining funds
                               Total            Funds remaining after awards
               FY          allocation *          (percent of total allocation)
              2008         $5,569,062                   $396,527 (7.12)
              2009          5,032,557                    329,895 (6.56)
              2010          4,743,646                    464,404 (9.79)
              2011          5,376,900                    309,040 (5.75)
            Source: OIG analysis of Region 8 tribal funding allocations.
               * includes annual allocation and recertified funds

            According to Region 8 project managers, rigorous review and fine-tuning of work
            plans helps assure success for tribes and provides appropriate funding based on
            achievable goals. This process may result in the region not awarding all of its
            Section 106 tribal allocation; the region can use any unawarded or unobligated
            Section 106 funds for special projects/associated program support costs.

            Allegation #2: Region 8 Used Funds for Projects That Neither
            Benefitted Tribes nor Had Their Approval

            Region 8 provided evidence that both the interagency agreement with USGS and
            the contract on WQX support benefit the tribes rather than EPA. However,
            Region 8 does not have an effective method for gaining tribal approval to use
            Section 106 funds for associated program support.

            Region 8’s Associated Program Support Activities

            In 2006, Region 8 entered into an interagency agreement with USGS for technical
            review and technology transfer activities associated with water quality monitoring
            and assessment. In 2010, Region 8 entered into a contract to provide tribes with
            support related to WQX. A Region 8 project manager said that the contractor
            created a template that all Region 8 tribes can use to load data into a virtual
            warehouse (EPA’s Ambient Water Quality Monitoring System). The contractor
            can then upload that data to WQX.

            According to the Region 8 water quality team lead, tribal environmental program
            staff frequently change, which historically has made it difficult to aggregate water
            quality data. The Region 8 water quality team lead said that the contractor reviews
            tribal data to ensure security of cultural and other confidential information for
            sacred tribal and similar sites, provides technical support, and organizes a peer-
            training network. Services provided by the USGS (through the interagency
            agreement) and by the contractor supporting WQX are considered non-grant
            program support. In the absence of specific Office of Water guidance, Region 8’s
            TAP has relied on the Office of Air and Radiation’s Clean Air Act guidance as
            support for using grant funds for non-grant program support activities.




12-P-0453                                                                                     5
            Guidance on Requirements for Associated Program Support Costs

            The Office of Air and Radiation guidance for using STAG resources for
            associated program support costs includes three requirements:

               1.	 The activity must be the inherent responsibility of a state, tribal, or local
                   air pollution control agency;
               2.	 The activity must be of primary benefit to these agencies and not EPA;
                   and
               3.	 EPA must get the prior approval of these agencies before using funding
                   for associated program support.

            The interagency agreement with USGS met the first and second requirements of
            the Office of Air and Radiation guidance given that Tribal Assessment Reports
            are a grant requirement, and they must include a water quality assessment. USGS
            provided training and water quality data interpretation to tribes and retrospective
            analyses of tribal water quality. Similarly, the WQX contract met the first and
            second requirements. The activity under the WQX contract is the inherent
            responsibility of the tribe because grant-required Tribal Assessment Reports
            contain electronic copies of water quality data, and the contract addressed this by
            helping to generate and upload this data into WQX. Activities under the WQX
            contract are the primary benefit of the tribe because the contractor streamlined
            data entry and provided tribes with technical support and training.

            However, neither the interagency agreement nor the WQX contract met the
            requirement to obtain prior approval from tribal recipients, which Region 8 could
            have accomplished during ROC meetings. Region 8’s ROC charter states that
            membership consists of one representative from each Region 8 tribe, each of
            which has one vote. The ROC charter further provides that voting—taken through
            roll call at quarterly meetings—requires a quorum of nine members, one of which
            must be an officer. While the ROC minutes from 2008 through 2011 contained
            some discussion of both the interagency agreement and WQX, the minutes did not
            demonstrate that quarterly meetings were held each year nor that any meeting had
            a quorum until June 2011. Moreover, the ROC minutes did not contain any
            evidence that the IAG or contract was ever presented “for approval.” Table 3
            summarizes the results of the ROC meeting discussions on the interagency
            agreement and WQX.




12-P-0453                                                                                          6
                 Table 3: 2008–2011 Region 8 ROC meetings
                                                        Discussion topics:
                                                   Interagency        WQX
                    Date and type of ROC            agreement       contractor              Quorum/attendance
                          March 2008                   Yes             Yes                     No evidence
                         tribal caucus
                      March–April 2010                  Yes                 Yes                  No evidence
                         tribal caucus
                          March 2011                    Yes                 No                   No evidence
                          conference
                     June 2011 meeting                  Yes                 No             Yes – per hotel records
                                                                                             (no roll call taken)
                                                                                           18 attendees/9 tribes*
                    October 2011 meeting                Yes                 No                 Yes – roll call
                                                                                           15 Attendees/11 tribes
                        November 2011                    No                 No                 Yes – roll call
                         monthly call                                                      17 attendees/12 tribes
                 Source: OIG analysis of ROC meeting minutes.
                    * Absent a roll call we could not discern an accurate number of tribes that participated. We
                      assumed a quorum of 9 tribes based on the 18 attendees.

                 Members at the March 2011 ROC conference supported work completed under
                 the interagency agreement, and the ROC chairperson drafted a letter to EPA on
                 March 24, 2011, stating tribal support. However, at a subsequent June 2011 ROC
                 meeting, members indicated that they did not benefit from the interagency
                 agreement and did not want to sign the letter. Despite the draft March letter in
                 support of the interagency agreement, Region 8 decided not to extend it beyond
                 early 2012, in part because of the hotline complaint and in part because of
                 difficulties in funding the interagency agreement in 2011.4

                 According to the Office of Water’s national Section 106 coordinator, the Office of
                 Water has not issued national guidance on the use of unobligated Section 106
                 funds due to the high utilization rate of Section 106 funds by states and tribes.
                 Absent CWA Section 106 guidance, Region 8 has used the Office of Air and
                 Radiation guidance that requires prior approval before using funds for associated
                 program support. The Region 8 TAP Director stated that the region uses a quorum
                 at ROC meetings to determine approval, but ROC minutes did not consistently
                 document either a roll call or the existence of a quorum that would show formal
                 approval of a matter before the ROC, such as on the interagency agreement and
                 WQX contract. A Region 8 TAP tribal program manager said that over the past
                 2 years, the region took roll during monthly ROC calls but not at ROC meetings
                 (although our review found that they took roll at the October 2011 meeting). The

4
 In October 2011, EPA adopted a new automated financial system. While the Agency transferred data from the
Integrated Financial Management System to the new Compass Financials system, neither the old nor the new system
was available. As a result, TAP was precluded from using leftover, unobligated funds for the interagency agreement
as previously planned.


12-P-0453                                                                                                          7
                 region informed us it did not take roll call at all meetings, but believed it had a
                 quorum in FY 2011 based on other information, such as attendee lists from hotels
                 housing tribal members. Results from ROC meetings do not clearly demonstrate
                 whether Region 8 makes decisions on the use of remaining funds via ROC
                 majority/quorum. Thus, the region cannot demonstrate prior, formal tribal
                 approval before using funds remaining, as required by the Office of Air and
                 Radiation guidance.

                 Allegation #3: Region 8 Separated Decision Making Between
                 Two Offices

                 Region 8 administered the tribal Section 106 program via two separate offices—
                 Office of Ecosystem Protection and Remediation and Office of Partnerships
                 Regulatory Assistance/TAP,5 per Agency guidance. EPA’s Indian Environmental
                 General Assistance Program – Guidelines on the Award and Management of
                 General Assistance Agreements for Indian Tribes (March 9, 2000) designates the
                 Regional Administrator as the General Assistance Program manager. Per the
                 guidelines, the Regional Administrator can delegate responsibilities and establish
                 program managers separate from grants managers. Managers and staff responsible
                 for providing technical support can be housed in one office while managers and
                 staff supporting grant functions can be in another.

                 While Region 8’s approach to housing regional program managers separate from
                 the regional grants management office followed the 2000 guidelines, the hotline
                 complaint asserted that this structure was ineffective in making program decisions
                 and providing program administration. Our interviews with Region 8 staff
                 confirmed the region had difficulties in meeting the technical needs of tribes with
                 the dual-office structure. Region 8 had also recognized this deficiency prior to the
                 hotline complaint, noting that the demand for technical assistance exceeded the
                 level of dedicated staff in any one office assigned to perform those tasks.
                 Region 8 believes the Office of Ecosystems Protection and Remediation, TAP,
                 and the Montana Operations Office have a shared role and responsibility to
                 provide technical and programmatic expertise to tribal grantees. As such, in
                 spring 2011, the region adopted a team approach to facilitate better service.
                 Region 8 now assigns each tribe a specific team with personnel from four
                 program areas: technical water quality, watershed, quality assurance, and TAP.

                 During the most recent grant solicitation cycle, each team reviewed the technical
                 and programmatic merits of their assigned tribes’ work plan and budget, and
                 provided written comments. The steering committee (a result of the new team
                 approach), comprising five senior Region 8 staff members, reviewed tribal work
                 plans and comments from the technical support team and made final funding
                 recommendations. The steering committee submitted its recommendations (which

5
 Some Montana staff help review tribal grant work plans; however, the hotline allegation focused on two offices –
Office of Ecosystem Protection and Remediation and Office of Partnerships Regulatory Assistance/TAP. Therefore,
our findings focused on the two offices mentioned in the hotline allegation.


12-P-0453                                                                                                       8
            include comments from the technical support team as well as its own) to the
            Region 8 management team. The management team (made up of managers from
            TAP, Office of Ecosystems Protection and Remediation, and the Montana
            Operations Office) made final funding decisions and shared those decisions with
            the tribes. According to regional staff, the new process provides tribes additional
            opportunities to negotiate their funding levels. Also, tribes can work with the
            region throughout the process to provide additional information or clarify
            outstanding issues.

            Also, Region 8 compiled a list of programmatic and technical contacts and
            provided contact lists to each tribe. The region expects tribes to direct
            programmatic requests to the TAP lead whereas most technical issues should be
            directed to the water quality lead. The contact list includes three other areas of
            expertise, including a watershed lead (non-point source), a quality assurance lead,
            and additional water quality resources (water quality standards, and support from
            the interagency agreements with USGS). The list provides each tribe with a quick
            reference in each of the program areas.

            Cross-office personnel from Region 8 meet monthly to discuss tribal matters.
            Since September 2008, the Office of Communications and Public Involvement
            and TAP have hosted meetings with staff across the region to improve internal
            communications on work with tribes.

            Region 8 believes its new team approach will provide a broader set of skills and
            more effectively address tribal needs. Through its team approach, the region
            hopes it will be able to provide the support similar to that previously provided by
            the interagency agreement with USGS. To this end, the region will not be funding
            the interagency agreement beyond spring 2012. The region also implemented a
            new process for awarding Section 106 grants that includes multiple review steps
            to ensure better-informed decisions. According to the region, while long-term
            effects remain to be seen, the immediate results of the team approach are
            improved communication and transparency within the region.

Recommendations
            We recommend that the Assistant Administrator for Water:

               1.	 Develop guidance for CWA Section 106 associated program support costs.
                   Guidance should incorporate specific requirements to use state and tribal
                   assistance grants for associated program support, and a process to obtain
                   approval from recipients for associated program support costs funded with
                   Section 106 program funds. Alternatively, formally adopt Office of Air
                   and Radiation’s guidance on associated program support costs.




12-P-0453                                                                                         9
            We recommend that the Regional Administrator, Region 8:

               2.	 Develop regional guidance to formalize the process by which the region
                   gains approval from tribes for associated program support costs funded
                   with Section 106 program funds. Guidance should include requiring that a
                   roll call be taken indicating the presence of a quorum, and voting records
                   be kept, as a standard part of ROC meetings and minutes.

               3.	 Evaluate the effectiveness of the region’s team approach to tribal technical
                   assistance—as part of the guidance developed in recommendation 2—by
                   periodically querying ROC members and making adjustments as needed
                   based on tribal feedback.

Agency Comments and OIG Evaluation
            The Office of Water and Region 8 concurred with our recommendations.
            Appendix A contains the Agency’s full response to our draft report and planned
            actions by both the Office of Water and Region 8 to address our
            recommendations. We believe planned actions by the Office of Water and
            Region 8 address the intent of our recommendations. Our recommendations
            remain unresolved pending planned completion dates on actions to address our
            recommendations.




12-P-0453                                                                                    10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL
                                                                                                                                 MONETARY
                                                                                                                                  BENEFITS
                                                         RECOMMENDATIONS                                                          (in $000s)

                                                                                                                   Planned               Agreed-
Rec. Page                                                                                                         Completion   Claimed     To
No. No.                                   Subject                             Status1      Action Official           Date      Amount    Amount

    1     9    Develop guidance for CWA Section 106 associated program          U       Assistant Administrator
               support costs. Guidance should incorporate specific                             for Water
               requirements to use state and tribal assistance grants for
               associated program support, and a process to obtain
               approval from recipients for associated program support
               costs funded with Section 106 program funds. Alternatively,
               formally adopt Office of Air and Radiation’s guidance on
               associated program support costs.

    2    10    Develop regional guidance to formalize the process by            U       Regional Administrator,
               which the region gains approval from tribes for associated                     Region 8
               program support costs funded with Section 106 program
               funds. Guidance should include requiring that a roll call be
               taken indicating the presence of a quorum, and voting
               records be kept, as a standard part of ROC meetings and
               minutes.

    3    10    Evaluate the effectiveness of the region’s team approach to      U       Regional Administrator,
               tribal technical assistance—as part of the guidance                            Region 8
               developed in recommendation 2—by periodically querying
               ROC members and making adjustments as needed based
               on tribal feedback.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




12-P-0453                                                                                                                                      11
                                                                                    Appendix A

                 Agency’s Response to Draft Report




I appreciate the opportunity to review and comment on the Office of Inspector General Draft
Report on the OIG Hotline Complaint Alleged Misuse of Tribal Clean Water Act Section 106
Funds in EPA Region 8, which you provided on March 8, 2012. As stated in the draft report, the
objective of the review was to determine whether Region 8 follows guidance for funding "special
projects" with Section 106 tribal funds.

The Office of Water and Region 8 have reviewed the draft report including the draft
recommendations. We agree in large part with the findings and recommendations in the OIG's
draft report. Our comments are as follows:

RESPONSE TO SPECIFIC RECOMMENDATIONS

OIG Recommendation 1: Develop guidance for CWA Section 106 associated program support
costs. Guidance should incorporate specific requirements to use state and tribal assistance grants
for associated program support, and a process to obtain approval from recipients for associated
program support costs funded with Section 106 program funds. Alternatively, formally adopt
Office of Air and Radiation's guidance on associated program support costs.
EP A Response: The Office of Water will conduct a review of Regional use of the associated
program support costs authority for assisting tribal programs. In response to this


12-P-0453                                                                                       12
recommendation, the Office of Water will assess approaches and may, as appropriate, develop
new guidance or formally adopt existing guidance (e.g., the applicable sections of the Guidance
on the Office of Air and Radiation (OAR) Assistance Authorities and Allowable FY 2009 State
and Tribal Assistance Grant [STAG) Funded Activities) currently applicable to other programs.

OIG Recommendation 2: Develop regional guidance to formalize the process by which the
Region gains approval from tribes for associated program support costs funded with Section 106
program funds. Guidance could include requiring that a roll call be taken indicating the presence
of a quorum, and voting records be kept, as a standard part of ROC meetings and minutes.

EPA Response: Region 8 plans to address this recommendation by following the Regional
Operations Committee (ROC) guidelines dated March 17, 2011, regarding roll call, a voting
quorum, and minutes that document the voting decision process. When a decision is required,
Region 8 tribes or the EPA will request the ROC Chair to call for a vote on the specific issue.
The vote results will be recorded in the ROC minutes.

OIG Recommendation 3: Evaluate the effectiveness of the region's team approach to tribal
technical assistance -as part of the guidance developed in recommendation #2 -by querying ROC
members and making adjustments as needed based on tribal feedback.

EPA Response: Region 8 plans to comply with this recommendation by following the review and
evaluation criteria outlined in the Region 8 Tribal Support Work Plan. This process calls for
ongoing review and feedback on the programmatic and technical assistance provided by the EPA
staff. At the annual Spring ROC meeting, the Regional Administrator or designee will query
ROC members about the Region's team approach. Feedback will be documented and used to
make necessary adjustments to our approach.

TECHNICAL CLARIFICATION TO THE DRAFT REPORT

On page seven of the draft report there is a sentence that states, "According to the Office of
Water's national Section 106 coordinator, the Office of Water has not issued national guidance
on the use of unobligated Section 106 funds because the office has not identified this issue as an
area of concern." The Office of Water believes it is important to clarify the context in which this
statement was offered and is proposing alternative report language. In discussions with your
staff, EPA's Coordinator for the 106 Program was making the point that Section 106 funds are
provided to states and tribes to manage their base programs, and as such, are largely utilized in
the year in which they are awarded. Historically, the 106 Program has not experienced
significant issues with unobligated funds. Therefore, the Office of Water requests the IG modify
the sentence above to reflect that intent. Specifically, we request the following alternative
language be used: "According to the Office of Water's national Section 106 coordinator, due to
the high utilization rate of Section 106 funds by states and tribes, the Office of Water has not
issued national guidance on the use of unobligated Section 106 funds because the office has not
identified this issue as an area of concern." We would further note that the Office of Water is
currently working with the Office of the Chief Financial Officer to analyze the status of
unliquidated obligations by grant program, including the Section 1 06 program. The goal of the
analysis is to identify areas of improvement for awarding grants in a timely manner and may
result in updating guidelines for awarding grants.


12-P-0453                                                                                         13
On behalf of the EPA's Office of Water and Region 8, I want to thank the Office of Inspector
General for its recommendations that are aimed at improving the decision process associated
with using CWA Section 106 grant funds for associated program support costs to tribes. Region
8 concurs on this response (please see the attached letter from James B. Martin, dated March 29,
2012). If you have any questions or concerns, please contact me, or your staff may contact
Felicia Wright, Office of Water Tribal Coordinator at (202) 566-1886, or
wright.felicia@epa.gov.

Attachment

cc: 	   James B. Martin
        Howard M. Cantor
        Callie A. Videtich
        Alfreda Mitre
        Randy Brown
        Michael Boydston
        Felicia Wright
        Robyn Delehanty
        Marilyn Ramos




12-P-0453                                                                                     14
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                      REGION 8 

                                               1595 Wynkoop Street
                                           DENVER, CO 80202-1129
                                               Phone 800-227-8917
                                           http://www.epa.gov/region08


8P-TA         	                                          March 29, 2012

MEMORANDUM

SUBJECT:          Region 8 Concurrence on Draft OIG Report OA-FY11-044, dated March 8, 2012

FROM:             James B. Martin /s/
                  Regional Administrator

TO:               Nancy K. Stoner
                  Acting Assistant Administrator
                  Office of Water

I hereby concur on the OIG Draft Report on the Alleged Waste and Misuse of Tribal Clean
Water Act Section 106 Funds in Region 8. The report contained three recommendations. The
action official for the first recommendation is the Acting Assistant Administrator for Water and
the second and third are assigned the Region 8 Regional Administrator or designee.

Region 8 plans to address the second recommendation by following the Regional Operations
Committee, (ROC) guidelines dated March 17, 2011, regarding roll call, a voting quorum, and
minutes that document the voting decision process. When a decision is required, Region 8
tribes or EPA will request the ROC Chair to call for a vote on the specific issue. The voting
results will be captured in the ROC minutes.

Region 8 plans to comply with the third recommendation by following the review and
evaluation process outlined in the Region 8 Tribal Support Work Plan. This process calls for
ongoing review and feedback on the programmatic and technical assistance provided by EPA
staff. At the annual Spring ROC meeting, the Regional Administrator or designee will query
ROC members about the Region's team approach. Feedback will be documented and used to
make necessary adjustments to our approach.

 Thank you for the opportunity to respond. If you have any questions or concerns, please
contact me or your staff may contact Alfreda Mitre, Tribal Assistance Program Director at
(303) 312-6343, or mitre.alfreda@epa.gov.

cc: 	   Howard M. Cantor
        Callie A. Videtich
        Alfreda Mitre
        Randy Brown
        Michael Boydston
        Felicia Wright
        Robyn Delehanty
        Marilyn Ramos


12-P-0453                                                                                       15
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Water
Regional Administrator, Region 8
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Region 8




12-P-0453                                                                           16
